   FEDERAL COMMUNICATIONS
         COMMISSION

             OFFICE OF INSPECTOR GENERAL




     Report on Special Review of Employee Use of FCC Travel Cards

                    Special Review Report No. 01-AUD-10-41
                                  May 8, 2002


   H. Walker Feaster III                                  Thomas D. Bennett
    Inspector General                             Assistant Inspector General – Audits


    Thomas M. Holleran                                     Robert E. Shipp
Assistant Inspector General –                         Director – Contract Audits
    Policy and Planning
        Report on Special Review of Employee Use of FCC Travel Cards

                              Table of Contents


                                                                        Page


EXECUTIVE SUMMARY                                                          2


REVIEW OBJECTIVE                                                           3


REVIEW SCOPE                                                               3


BACKGROUND                                                                 4


CONCLUSION                                                                 4


RECOMMENDATION                                                             10


MANAGEMENT COMMENTS                                                        10


APPENDIX A       Bank of America Individually Billed Card Account
                 Setup/Application Form

APPENDIX B       Draft Travel Operations Group Procedures

APPENDIX C       Memorandum entitled “Personal Use of Government
                 Bank of America Credit Cards by Commission Employees”
                 from Office of General Counsel to Office of Inspector General
                 and dated January 15, 2001

APPENDIX D       “Outstanding Travel Authorization” from Michelle Scott of the
                 Office of Managing Director Travel Operations Group to a Credit
                 Revoked Employee and dated April 10, 2001

APPENDIX E       Memorandum entitled “Response to the Office of Inspector
                 General’s Recommendations for the Commission’s Travel Card
                 Program” and dated May 6, 2002.
EXECUTIVE SUMMARY

As a result of recent Congressional interest and at the request of the Commission’s
Managing Director, the FCC Office of Inspector General (OIG) has conducted a special
review of the Commission’s travel card program. The purpose of this special review was
to examine FCC employee usage of Government travel cards and evaluate the
Commission’s program for ensuring employee compliance with travel card policies and
procedures. The specific objectives of this review included determining whether (i) FCC
travel cardholders are using travel cards in compliance with prescribed policies and
procedures; (ii) Policies and procedures for using travel cards are adequate; and (iii)
Commission draft administrative policies and procedures would be adequate if finalized
without modification.

To accomplish the objectives of this review, we obtained an understanding of the specific
management controls relevant to the Commission’s Travel Card Program. This special
review was conducted in accordance with government auditing standards.

We found that, in general, FCC employees used their travel cards in compliance with the
Commission’s travel card policies and procedures during FY 2001. For example, only
seven FCC employees out of approximately 900 Commission travel cardholders (0.8
percent) had their travel cards revoked by the Bank of America for not paying their bills
during FY 2001. We also found that the Commission’s travel card policies and
procedures for travel card use to be adequate and in compliance with Federal Travel
Regulations (FTR). However, we did find instances of employees not using their travel
cards in compliance with the Commission’s travel card policies and procedures. We also
found that the Commission could (i) strengthen its draft administrative policies and
procedures by providing more detailed guidance in some areas; and (ii) formalize its
policies for evaluating inappropriate behavior and taking appropriate disciplinary action
when employees use travel cards for non-official travel purposes or fail to pay undisputed
charges in a timely manner.

Based on the results of our review, we have made recommendations that, in our opinion,
would increase management control, reduce the risk for abuse, and help prevent payment
delinquencies within the Commission’s travel card program.

On April 22, 2002 we issued a draft report summarizing the results of our review which
included recommendations for program enhancement. On May 6, 2002 the Managing
Director responded to our draft report. In his responses, the Managing Director
concurred with our recommendations and provided a description of the corrective actions
being taken in response to each recommendation. A complete copy of the Managing
Director’s response is included as Appendix E to this report.




                                            2
REVIEW OBJECTIVE

As a result of recent Congressional interest1 and at the request of the Commission’s
Managing Director, the FCC Office of Inspector General (OIG) has conducted a special
review of the Commission’s travel card program. The purpose of this special review was
to examine FCC employee usage of Government travel cards and evaluate the
Commission’s program for ensuring employee compliance with travel card policies and
procedures. The specific objectives of this review included determining whether (i) FCC
travel cardholders are using travel cards in compliance with prescribed policies and
procedures; (ii) Policies and procedures for using travel cards are adequate; and (iii)
Commission draft administrative policies and procedures would be adequate if finalized
without modification.

REVIEW SCOPE

The scope of this special review incorporated all steps necessary to provide the Chairman
a complete, independent and objective analysis of travel card use by Commission
employees. This included:

     •   Reviewing the Commission’s Travelers Credit Card Program Policies and
         Procedures;

     •   Assessing control risk to use as a basis for planning the nature, timing, extent of
         testing;

     •   Examining, on a test basis, evidence supporting the amounts and disclosures in
         the data and records reviewed; and,

     •   Evaluating the overall data and records presentation.

This special review was conducted in accordance with government auditing standards.




1
    May 1, 2001 hearing entitled Implementation of the Travel and Transportation Reform Act of 1998:
    “Why Haven’t Federal Employees Been Held Accountable for Millions of Dollars of Federal Travel
    Expenditures?” conducted by the United States House of Representatives Government Efficiency,
    Financial Management and Intergovernmental Relations Subcommittee.

                                                   3
BACKGROUND

In February 1998, the FCC replaced American Express with the Bank of America (BA)
as the Commission’s travel card provider. The Commission selected BA from the
General Services Administration’s (GSA) SmartPay Program2 as the vendor providing
credit cards and a travel and transportation payment and expense system for official
travel expenses of the Commission and its employees. This system consists of
individually billed employee accounts for use in connection with official Government
domestic and international travel-related expenses. FCC travelers are required to use the
Government travel card for cash advances, transportation tickets, lodging, meals or other
subsistence costs, commercial vehicle rental/lease, gas or oil for commercial rental
vehicles, shuttle buses, and other local travel while on official travel.

On May 1, 2001, the United States House of Representatives Government Efficiency,
Financial Management and Intergovernmental Relations Subcommittee held an oversight
hearing on travel card misuse by Government employees. Congressman Stephen Horn,
Subcommittee Chairman, stated in his opening remarks that the subcommittee became
concerned because the Bank of America reported that Department of Defense employees
have defaulted on more than $50 million in federal travel expenditures since the
program’s inception in 1998 and that it writes off more than $2 million in delinquent
federal travel expenditures each month. GSA also reported that federal employees were
delinquent in paying more than $25 million charged against their travel accounts and that
some agencies and departments were delinquent in repaying more than $12 million in
travel expenditures.

Because of these Congressional concerns and at the Managing Director’s request, we
initiated a special review of the Commission’s travel card program. On November 28,
2001, the OIG conducted an entrance conference with the Managing Director and his
representatives and notified them of the special review goals and objectives and
announced the beginning of fieldwork.

CONCLUSION

We found that, in general, FCC employees used their travel cards in compliance with the
Commission’s travel card policies and procedures during FY 2001. For example, only
seven FCC employees out of approximately 900 Commission travel cardholders (0.8
percent) had their travel cards revoked by the Bank of America for not paying their bills
during FY 2001. We also found that the Commission’s policies and procedures for travel
card use to be adequate and in compliance with Federal Travel Regulations (FTR).
However, we did find instances of employees not using their travel cards in compliance

2
    Under the SmartPay program, the GSA contracted with the Bank of America under contract no. GS-
    23F-98004. Contract effective dates November 30, 1998 through November 29, 2003, with five
    additional one-year options to renew.




                                                   4
with the Commission’s travel card policies and procedures. We also found that the
Commission could (i) strengthen its draft administrative policies procedures by providing
more detailed guidance in some areas; and (ii) formalize its policies for evaluating
inappropriate behavior and taking appropriate disciplinary action when employees use
travel cards for non-official travel purposes or fail to pay undisputed obligations in a
timely manner.

Non-Compliant Travel Card Transactions

We used a combination of random and judgmental sampling techniques to select two-
hundred forty-two (242) travel card transactions and forty (40) travel vouchers from FY
2001 Bank of America transaction and FCC travel voucher reports to review for
compliance with the Commission’s travel card policies and procedures.

Based on the results of our review, we have concluded that, in general, FCC employees
complied with the Commission’s travel card policies and procedures during FY 2001.
However, we did find the following instances where Commission employees used the
travel card when they were not on official travel:

   •   One employee used the travel card to make cash withdrawals that were not
       associated with official travel. Further investigation revealed that this employee
       used the travel card to make ten (10) separate cash withdrawals and pay for two
       (2) lunches at local restaurants during the period from January 30, 2001 through
       August 28, 2001 that were not associated with official travel. Subsequent follow-
       up procedures by the Agency Program Coordinator (APC) revealed that this
       employee continued using the travel card for non-official travel cash withdrawals
       from September 2001 into January 2002, even after the APC inquired about the
       appropriateness of the earlier cash withdrawals.

   •   Nine employees used the travel card to make purchases at stores, restaurants, and
       rental companies that were not associated with official travel.

In addition to inappropriate use of the travel card by employees who were not on official
travel, we identified instances of non-compliance with policies and procedures governing
travel card use by employees that were on official travel:

   •   Three (3) employees used the travel card to withdraw cash earlier than the “no
       sooner than three (3) days before official travel requirement” prescribed in the
       travel card policies and procedures.

   •   Two (2) employees paid for more than their own expenses when they used the
       travel card to host dinners for groups while on official travel.

   •   Two (2) employees used the travel card for cash withdrawals that were for less
       than the $50 minimum cash withdrawal limit.


                                            5
   •   Two (2) employees made travel card purchases that were not supported by FCC
       travel documentation. Our inquiries revealed that these employees used their
       travel cards for expenses while under U. S. Customs Service (Customs) travel
       authorizations.

The Commission’s policies and procedures governing travel card use prescribe that the
Commission’s “travel charge card program is the mandatory program for travel related
charge card purchases.” It also limits travel card use to cash advances, transportation
tickets, lodging, meals or other subsistence costs, commercial vehicle rental/lease, gas or
oil for commercial rental vehicles, taxis, shuttle buses and other local travel. The policies
and procedures further restrict travel card use to paying the cardholder’s expenses only.
The bases for these policies and procedures are found in the Federal Travel Regulations
(FTR) contained in (i) 41 CFR § 301-51.1, which require Government employees to use
the contractor-issued travel charge card for all official travel; and (ii) § 301-51.6, which
specifically limits travel card use to an employee’s own official travel related expenses.
The Commission’s policies and procedures further define cardholder responsibilities by
prescribing that:

       “When using the charge card, the cardholder must comply with all Federal,
       Agency, and Bureau/Office-specific prohibitions, controls, limitations, and
       approval requirements. Intentional use of the charge card by a cardholder for
       other than official Government travel related expenses away from your official
       duty station may be considered an ethics violation and can result in immediate
       cancellation of the employee’s card and disciplinary action against the employee
       under applicable Agency administrative procedures, including suspension and/or
       removal.

       Use of the card for charges for personal items during travel or at any other time,
       meals at local restaurants and/or local transportation, even if business related, is
       prohibited.”

The Commission also provided cardholders with a Government travel card program
packet which includes a copy of the Commission’s policies and procedures for travel card
use, a Federal Government Traveler Profile form, and a Bank of America Individually
Billed Card Account Setup/Application Form (Appendix A) with a copy of the
Agreement Between Agency/Organization Employee and Bank of America, N.A. (USA).
The application specifies that:

       “By signing below, I (a) request that a Government Card be issued in my name,
       (b) agree to use the Card for official travel and official travel related expenses
       only, and to be bound by the terms and conditions of the attached Agreement
       governing my use of the Government Card, and (c) attest to the best of my
       knowledge, that the information I have provided herein is true and accurate.”



                                             6
We sent e-mail inquiries to each reviewed employee with questionable transactions and
requested clarification and documentation to support whether their charges were for
official travel or to confirm that they actually made non-official travel related
transactions. The cardholders who made non-official travel related cash withdrawals and
purchases concurred that they used their travel cards for personal reasons. The
employees cited ignorance of Commission policies and procedures, inadvertent use, or
clearing out a credit balance as the reasons for using their travel cards for personal
purposes. For example, to justify using the travel card to withdraw cash that was not
related to official travel, the employee stated that: “I did not review the restrictions on my
travel card when I first received it…I regret not familiarizing myself with card
restrictions and will certainly adhere to these requirements on a going forward basis.”
Because of the habitual pattern of abuse in this case and because this individual occupies
a senior level position, this matter was referred to Commission management for
appropriate disciplinary action.

Our follow-up review of the other cardholders who used their travel cards for non-official
travel purposes confirmed that their FY 2001 transactions were one-time or occurred over
a single period of time.

We did not make follow-up inquiries to employees who inappropriately used their travel
cards while on or preparing for official travel (i.e. early cash advances, below the
minimum dollar requirement, etc.). While not compliant with the travel card policies and
procedures, we concluded that the transactions were related to official travel and the use,
while inappropriate, was likely related to the lack of familiarity with policies and
procedures.

However, we did make inquiries about the undocumented travel card charges made by
employees whose travel costs were reimbursed under a Customs travel authorization.
The employees stated that all their travel card transactions were submitted to and
reimbursed by Customs. Follow-up discussion with the appropriate Bureau’s Assistant
Bureau Chief for Management and Resources confirmed the employees’ statements. He
also stated that his office plans to discuss FCC documentation requirements and explore
other methodologies for making non travel-related purchases while under another
agency’s travel authority with Commission management. Discussions with the Chief
Financial Officer and Agency Program Coordinator also confirmed that Commission
field personnel should be documenting all official travel, even if funded by other
agencies.

FCC Lacks Detailed Guidance for Administering the Travel Card Program

We found that the Commission’s policies and procedures in place for administering the
travel card program were in draft form and not finalized as of this report date. However,
we reviewed the draft policies and procedures to determine whether they would
adequately describe the control functions and responsibilities for effective internal control
and preventing waste, fraud, and abuse within the Commission travel card program
should they become final.

                                              7
We performed the travel card program administration review by interviewing FCC
Agency Program Coordinator (APC) and Chief Financial Officer (CFO) about the
Commission’s policies and procedures for administering the FCC’s travel card program;
reviewing the draft travel card program responsibilities of the Travel Operations Group
(Appendix B); and obtaining Office of General Counsel input about whether personal use
of Government travel cards constitute violations of the Standards of Ethical Conduct. We
also requested the OGC to provide a list of all referrals received for travel card policy and
procedure violations over the FY’s 2000 and 2001.

The roles and responsibilities for the Managing Director, Associate Managing Director-
Financial Operations, Financial Operations Center/Accounts Processing Group, Agency
Program Coordinator, Cardholders, and Bureau/Offices are defined in Chapter 1, Section
4 of the Commission’s policies and procedures governing travel card usage. However,
the draft administrative policies and procedures do not provide structured guidance for
program administration, oversight, or reporting inappropriate travel card activity. For
example, the Commission’s draft travel card administration policies and procedures does
not provide specific guidance for:

•   Detailing the duties, responsibilities and procedures for overseeing the charge card
    program;

•   Developing and revising travel card policies and procedures;

•   Maintaining credit card security;

•   Establishing, administering, reconciling, and paying “unit card” accounts billed to the
    Commission’s centrally billed account for credit revoked employees;

•   Reviewing monthly bank reports for inappropriate and non-travel related transactions;

•   Establishing procedures for appropriate disciplinary action against employees who
    use the Government travel charge card for non-official travel purposes, make
    delinquent payments, or have credit cards revoked or written-off by the bank; or

•   Collecting undisputed delinquent amounts owed to the bank by FCC employees.

An effective internal control environment is an integral component in helping FCC
management meet program goals and objectives, including the Commission’s Travel
Card Program; safeguard assets; and prevent and detect errors and fraud. The
Comptroller General of the United States emphasized the importance of effective internal
control in his forward to the General Accounting Office’s (GAO) FY 2000 internal
control standards update3 when he stated that a key factor in helping organizations to

3
    GAO document no. GAO/AIMD-00-21.3.1 entitled “Standards for Internal Control in the Federal

                                                 8
achieve their missions, program results, and minimize operational problems is by
implementing appropriate internal controls.

In its FY 2000 internal control standards update, the General Accounting Office (GAO)
cited integrity and ethical values maintained and demonstrated by management and staff
as one of the key factors affecting an agency’s control environment. It further defined
agency management’s key role in the control environment as providing leadership,
“especially in setting and maintaining the organization’s ethical tone, providing guidance
for proper behavior, and providing discipline when appropriate.” GSA mirrored this by
prescribing that, per § 301-51.7, agencies may take appropriate disciplinary action for
using the Government contractor-issued travel charge card for purposes other than
official travel. While not recommending specific guidelines on appropriate disciplinary
action, GSA provided the following example of one agency’s disciplinary actions for
using the travel card for non-official travel purposes:4

                                            Minimum                   Maximum
                                             Penalty                   Penalty

         1st Offense                        Written                   Removal
                                            Reprimand

         2nd Offense                        10 Day                    Removal
                                            Suspension

         3rd Offense                        14 Day                    Removal
                                            Suspension

In reply to our inquiry into whether using travel cards for non-official travel related
transactions are still considered ethics violations (Appendix C), the OGC reaffirmed their
previous opinion to the OIG on this matter.5 In their reply, OGC stated that “misuse of
the Government travel card may be considered a violation of the prohibition contained in
the Standards of Ethical Conduct against Federal employees using their public office for
private gain.” However, OGC also informed us that, over the last two years, no
Commission employees had been referred to OGC for possible Standards of Ethical
Conduct violations for using travel cards for non-official travel purposes.

In fact, we found that, of the seven (7) current FCC employees who had their travel credit
cards revoked by the Bank of America for nonpayment during FY 2001, no one was
referred to OGC for review nor subjected to disciplinary action by FCC management.
We also found that the FCC opened seven (7) “unit card” accounts, which are billed to

    Government” and dated November 1999
4
    January 19, 2000 Federal Register, Part III, General Services Administration, 41 CFR 301-51, et al.
    Federal Travel Regulation; Mandatory Use of the Travel Charge Card; Final Rule, effective July 19,
    1999.
5
    May 7, 1996 General Counsel Memorandum to the Inspector General, Personal Use of American
    Express Government Card by Commission Employees.

                                                    9
the Commission’s centrally billed account, for credit revoked employees so that they
could continue traveling on official FCC business. Please note that the Bank of America
does not revoke an employee’s travel credit card privileges until after accounts become
one-hundred twenty (120) days delinquent and employees have received late payment
notices from the bank. Based on interviews with the APC and from reviewing a copy of
the correspondence (Appendix D), the only corrective action FCC management took was
to e-mail the subject employees with instructions to pay their delinquent debts and warn
them of potential administrative consequences if they did not comply.

On April 22, 2001, we held an exit conference and discussed the above findings with the
Managing Director and Financial Operations Group representatives.

RECOMMENDATIONS

We recommend that the Commission:

1. Strengthen internal controls by clearly defining key areas of authority and
   responsibility and establishing appropriate lines of reporting within the Commission’s
   travel credit card program administration policies and procedures.

2. Formalize policies to include a process for evaluating inappropriate behavior and
   taking appropriate disciplinary actions when employees use travel cards for non-
   official travel purposes or fail to pay undisputed obligations in a timely manner.

3. Provide periodic guidance (similar to OGC ethics grams) to FCC cardholders that
   highlight travel card compliance requirements and issues to address instances of
   inappropriate use while on official travel.

4. Establish procedures for submitting, authorizing, and documenting Commission
   employee travel while under another agency’s travel authority. These procedures
   should also include guidelines for making non travel- related expenditures that are
   reimbursed under another agency’s travel authorization.

MANAGEMENT COMMENTS

On May 6, 2002, the Managing Director provided a response to our draft special review
report. In his response, the managing Director stated that the Commission is adding,
incorporating, or reviewing policies and procedures for each of the above cited
recommendations. We consider management’s actions to be adequate and will increase
controls over the Commission’s travel card program. A complete copy of the Managing
Director’s response is included as Appendix E to the report.




                                           10
